         U.S. Department of Energy
         Office of Inspector General
         Office of Audits & Inspections




Management Alert

Allegations Regarding Prohibited
Personnel Practices at the
Bonneville Power Administration




DOE/IG-0891                           July 2013
                                  Department of Energy
                                      Washington, DC 20585

                                           July 16, 2013

MEMORANDUM FOR THE SECRETARY


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Management Alert: "Allegations Regarding
                         Prohibited Personnel Practices at the Bonneville Power Administration"

INTRODUCTION

On May 11, 2010, the President issued a memorandum, Improving the Federal Recruitment and
Hiring Process, requiring all executive Federal agencies to convert to a category rating hiring
approach. This approach was established to broaden the candidate selection pool while still
complying with merit system principles and other requirements of Title 5, United States Code,
including, veterans' preference. The U.S. Office of Personnel Management (OPM) delegated the
competitive hiring authority to the Department of Energy, and the Department, in turn, delegated
these same authorities to Bonneville Power Administration (Bonneville). As with all personnel
with similar responsibilities within the Department, Bonneville's Human Capital Management
(HCM) staff members responsible for delegated examining actions are required to be certified by
OPM. Further, the Department is authorized by statute and has delegated to Bonneville the ability
to issue announcements and hire current or former Federal employees through merit promotion.

In June 2012, the Office of Inspector General received an anonymous complaint alleging
prohibited personnel practices at Bonneville. The complaint alleged violations of OPM
regulations, as well as Department policies regarding the application of veterans' preference and
the use of the category rating system in the exercise of Bonneville's delegated examining authority
for competitive hiring.

Given the seriousness of the complaint and as part of our fact gathering process, we sent the
complaint to the Department's Office of the Chief Human Capital Officer (Human Capital). In
February 2013, Human Capital expressed concern that Bonneville had not followed OPM and
Department regulations regarding exercise of its delegated examining authority and requested that
the Office of Inspector General review this matter. In response, we initiated a special inquiry to
determine the facts and circumstances surrounding the allegations of prohibited personnel
practices.

IMMEDIATE CONCERN

Based on our work to date, we have reached a preliminary conclusion that Bonneville engaged in a
number of prohibited personnel practices. Notably, Bonneville's hiring practices appeared to have
effectively disadvantaged veterans and other applicants. Such action was inconsistent with
concerted efforts by the Federal government to ensure that veterans received appropriate
preferential treatment in the hiring process. Equally concerning and the primary reason for the
urgency of this management alert, Bonneville has apparently proposed or recently executed a
number of personnel actions against certain employees who have cooperated with our review.
These actions have a potentially chilling effect on various aspects of our work and, as such,
jeopardize our ability to effectively complete our review of the circumstances surrounding
inappropriate Bonneville hiring practices.

                                          Interim Results

Although only preliminary, we have determined that Bonneville engaged in prohibited personnel
practices in 65 percent (95 of 146 cases) of its competitive recruitments conducted from November
2010 to June 2012. These practices involved modifying the best qualified category after all
applications were received; actions that resulted in the inappropriate exclusion of veterans and
other applicants from consideration for selection. We also discovered that even after the
inappropriate practices were disclosed by HCM staff and confirmed by independent sources, it
appears that Bonneville did not take required action to notify the affected applicants that were
disadvantaged and to address the impact of the inappropriate hiring that was associated with the
prohibited practices.

Our findings in this area are consistent with an internal review conducted by Human Capital and
with actions taken by OPM following its own review to revoke the certification of HCM staff that
perform competitive recruitment actions. Subsequent to OPM's decision, Human Capital quickly
moved to temporarily suspend Bonneville's overall delegated examining authority. Further, on
June 21, 2013, Human Capital also suspended Bonneville's merit promotion authority thereby
interrupting Bonneville's ability to advertise and fill jobs only open to individuals with Federal
status. Human Capital noted it took these actions because it found that there were major errors in
the vast majority of files reviewed, including a violation of hiring reform policies.

We continue to evaluate the circumstances surrounding these practices and seek to establish the
proximate cause of the improper exclusions. We are also focusing on why the issues, once
discovered by Bonneville, were not addressed in a timely manner.

                                    Allegations of Retaliation

During the conduct of our review, we became aware that Bonneville had initiated questionable
adverse personnel actions against a number of HCM staff members who either cooperated in one
or more of the reviews of Bonneville's personnel practices or who had previously raised related
concerns with Bonneville's management. While we are not in a position at this point to conclude
that the actions taken thus far are retaliatory in nature, we are deeply concerned.

We have received a number of complaints from HCM staff members alleging that they were
disciplined because they had communicated hiring problems to Bonneville management, to the
Office of Inspector General and/or to Human Capital officials. Key HCM personnel instrumental
in bringing the category rating issue to Bonneville and Human Capital's attention had been subject
to, or proposed for, a range of adverse personnel actions including removal from Federal service,

                                                 2
suspension, or placement on a Performance Improvement Plan. Further, additional personnel
actions have come to our attention involving other HCM employees who brought personnel-related
issues to management. The chilling effect of the adverse actions against Bonneville staff is clear,
jeopardizing efforts to get at the truth in these matters.

RECOMMENDATIONS

Due to the imminent possibility of further personnel actions and the general adverse effect
these actions are having on HCM staff, we believe that the Department's senior leadership should
intervene in this matter to ensure that all Bonneville employees feel free to report potential
wrongdoing in an atmosphere free from retaliation, whether real or perceived. Consistent with this
objective and in addition to on-going action by Human Capital to review proposed disciplinary
actions for certain HCM employees:

      1. All ongoing disciplinary actions of HCM staff should be suspended until our inquiry has
         been completed and the final results have been provided to the Department for full
         consideration; and

      2. In the case of individuals removed or on administrative leave pending removal, those
         employees should be temporarily restored to their positions consistent with the actions
         noted in the recommendation above.

We will issue a separate report on the results of our special inquiry of the alleged prohibited
personnel practices at Bonneville.

MANAGEMENT REACTION AND OIG COMMENTS

In a July 15, 2013, memorandum, the Department expressed its concurrence with the facts
presented, the conclusions reached and the recommendations provided in this Management Alert.
Notably, the Department initiated immediate corrective actions which were fully responsive to our
findings and recommendations. Management's comments are attached.

cc:      Deputy Secretary
         General Counsel
         Chief Human Capital Officer




                                                   3
                      Attachment

MANAGEMENT COMMENTS




         4
    Attachment (continued)




5
                                                                    IG Report No. DOE/IG-0891



                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report that would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.

Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
